PLATINUM AND PLATINUM REWARDS MASTERCARD AGREEMENT
In this Agreement, “You” and “your” mean any person who accepts this Agreement or uses the
Card. The “Card” means any Platinum Mastercard or Platinum Mastercard with CU Rewards
credit card issued to you or those designated by you under the terms of this Agreement. “We,”
“us” or the “Credit Union” means Diamond Credit Union or its successors. By using your card,
you agree to all of the terms and conditions set forth herein.
THE GRANTING OF THIS SECURITY INTEREST IS A CONDITION FOR THE ISSUANCE OF
CREDIT UNDER THIS AGREEMENT.
YOU SPECIFICALLY GRANT US A CONSENSUAL SECURITY INTEREST IN ALL
INDIVIDUAL AND JOINT ACCOUNTS YOU HAVE WITH US NOW AND IN THE FUTURE TO
SECURE REPAYMENT OF CREDIT EXTENDED UNDER THIS AGREEMENT. YOU ALSO
AGREE THAT WE HAVE SIMILAR STATUTORY LIEN RIGHTS UNDER STATE AND/OR
FEDERAL LAW. IF YOU ARE IN DEFAULT, WE CAN APPLY YOUR SHARES TO THE
AMOUNT YOU OWE.
Shares and deposits in an Individual Retirement Account or any other account that would lose
special tax treatment under state or federal law if given are not subject to this security interest.
If you have other loans with us, collateral securing such loans may also secure your obligations
under this Agreement, unless that other collateral is your principal residence or non-purchase
money household goods.

1. Using Your Card. Using your Card constitutes your acceptance of the terms and
conditions of this Agreement, as may be amended from time to time. You can purchase
or lease goods and services (“Purchases”) from any merchant who honors your Card up
to your maximum credit limit for your Card. You may also use the Card to obtain cash
advances up to your maximum credit limit from financial institutions and ATMs that
accept the Card. You may also access your account by telephone or access checks (if
provided to you). Certain purchases and cash advances require authorization prior to
completion of the transaction. In some cases, you may be asked to provide identification.
If our system is not working, we may not be able to authorize a transaction, even though
you have sufficient credit available. Also, for security reasons, we may block the use of
your Card in certain countries or geographic areas. We will have no liability to you or
others if any of these events occur.
2. Feature Categories. Your account has Feature Categories which may include Platinum
Mastercard and Platinum Mastercard with CU Rewards.
3. Credit Limits. We will notify you of each specific credit limit for each Feature Category
for which you are approved. You agree to keep your unpaid balance within your credit
limit; however, if you do exceed your credit limit, you agree to immediately pay any
amount over the credit limit upon our demand, regardless of whether we authorized the
advance(s) which caused you to exceed your credit limit.
4. Personal Identification Number (PIN). We will issue a Personal Identification Number
(PIN) for use with your Card. This PIN is confidential and should not be disclosed to
anyone. You may use your PIN and your Card to access your account, and all sums
advanced will be added to your account balance. In the event a use of your PIN
constitutes an Electronic Funds Transfer, the terms and conditions of your Electronic
Funds Transfer Agreement may affect your rights.

5. Promise To Pay. Regardless of the means used to access your account, you promise to
pay us in U.S. dollars for (a) all purchases, cash advances, and balance transfers made
by you or anyone whom you authorize to use the Card; (b) all Interest Charges and other
charges or fees; (c) collection costs and attorney’s fees as permitted by applicable law,
and any costs incurred in the recovery of the Card; and (d) credit in excess of your credit
limit that we may extend to you.
6. Illegal Use and Internet Gambling. You agree that all transactions that you initiate by
use of your Card are legal in the jurisdiction where you live and/or where the transaction
occurred. Internet gambling may be illegal in the jurisdiction in which you are located,
including the United States. Your Card may only be used for legal transactions. Display
of a payment card logo by an online merchant does not mean that internet gambling
transactions are lawful in all jurisdictions in which you may be located. You agree to
repay according to the terms of this Agreement all transactions you initiate by use of
your Credit Card, whether deemed legal or illegal.
7. Joint Accounts. Each of you will be responsible, jointly and severally, for the repayment
of amounts owed, regardless of who initiated any transaction under the account.
8. Ownership of Card. Your Card remains our property and may be cancelled by us at any
time without notice. You agree to surrender your Card and to dis- continue use of the
account immediately upon our request.
9. Others Using Your Account. If you allow anyone else to use your account, you will be
liable for all credit extended to such persons. You promise to pay for all purchases and
advances made by anyone you authorize to use your account, whether or not you notify
us that he or she will be using it. If someone else is authorized to use your account and
you want to end that person’s privilege, you must notify us in writing, and if he or she has
a Card, you must return that Card with your written notice for it to be effective.
10. Interest Charges. You agree to pay interest at the rate(s) disclosed to you at the time
you open your account and as may be changed from time to time in accordance with
applicable law. Interest Charges will accrue on your average daily balance outstanding
during the month (new and previous). To get the average daily balance, we take the
beginning balance each day, add any new purchases, cash advances, balance
transfers, insurance premiums or debt protection fees or similar fees, and debit
adjustments and subtract any unpaid late charges. This gives us the daily balance.
Then, we add up all the daily balances for the billing cycle and divide that by the number
of days in the billing cycle. We then multiply that by the monthly periodic rate
corresponding to the Annual Percentage Rate that was previously disclosed to you.
You can avoid Interest Charges on purchases by paying the full amount of the entire
balance for purchases each month by the date on which the payment is due. Otherwise,
the new balance for purchases, and subsequent advances from the date they are posted
to the account, will be subject to an Interest Charge. You cannot avoid Interest Charges
on cash advances and balance transfers; even if you pay the entire cash advance
balance or balance transfer balance by the payment due date, you will incur the Interest
Charges accrued from the trans- action date of the cash advance or balance transfer.
11. Fees. You agree to pay any and all fees that you incur in connection with your Card, in
accordance with applicable law, in the amounts set forth on your Truth-in- Lending
Statement, which fees and/or amounts may be amended from time to time.

12. Minimum Monthly Payments. Your minimum monthly payment will be 1.5% of your
total New Balance shown on your billing statement at the end of each billing cycle, plus
the amount of any prior payments dues that remain unpaid, subject to the lesser of $20
or your account balance. In addition, any time that your total New Balance exceeds your
credit limit, you must immediately pay the excess upon our demand. You have the right
to pay your account in full at any time without penalty. Partial payments or prepayments
will not delay your next scheduled payment – you will still need to make the minimum
scheduled payment by the next scheduled due date to keep your account current.
Payments will be applied in any order we determine, subject to applicable law. You
under- stand that any payment that delays the repayment of your unpaid balance will increase your Interest Charge and any payment that accelerates the reduction of your
unpaid balance will decrease your Interest Charges.
13. If Your Card is Lost or Stolen or if an Unauthorized Use Occurs. You agree to notify
us immediately if your Card is ever lost or stolen or if an unauthorized use may have
occurred. “Unauthorized use” means the use of the Card by someone other than you
who does not have actual, implied or apparent authority for such use, and from which
you receive no benefit. Call or write to us at (800) 593-1000 or (610) 326-5490 or
Diamond Credit Union, 1600 Medical Drive, Pottstown, PA 19464. You also agree to
assist us in determining the facts, circumstances and other pertinent information relating
to any loss, theft or possible unauthorized use of your Card and comply with such
procedures as we may require in connection with our investigation. You will have no
liability for Mastercard transactions not authorized by you, provided that you have
exercised reasonable care in safeguarding the Card from risk of loss or theft, and upon
becoming aware of such loss or theft, you promptly report the loss or theft to us.
14. Crediting Of Payments. Payments are due on the date disclosed on your monthly
statement. If your payment is received by us either by mail, electronically, or in-person at
a branch during regular business hours on a business day, it will be credited to your
account as of that date. Payments placed in our lock- box between 6 a.m. and 5 p.m.
EST will be credited to your account as of the date placed in the lockbox. If payment is
made by any other means or at any other times, credit for such payment may be delayed
up to five (5) days. Payments will be applied in any order we determine, subject to
applicable law.
15. Default; Acceleration; Credit Suspension; Collection Costs. You will be in default if:
(a) you fail to make any payment on time; (b) if you fail to keep any promises you have
made under this Agreement or under other Agreements you have with us; (c) if you die;
(d) if you file a petition in bankruptcy or have a bankruptcy petition filed against you, or if
you become involved in any insolvency, receivership or custodial proceeding; (e) if
anyone attempts to take any of your funds held by us via legal process or if you have a
judgment or tax lien filed against you; (f) if you make any false, inaccurate, or misleading
statements in any credit application or credit update; or (g) if we, in good faith, believe
that your ability to repay what you owe is or soon will be impaired, or that you are
unwilling to make your payments. If you are in default, we have the right to demand
immediate payment of your full account balance without giving you notice. If immediate
payment is demanded, you agree to continue paying Interest Charges until what you
owe has been paid, and any shares that were given as security for your account may be
applied toward what you owe. You agree to pay all reasonable costs of collection,
including court costs and attorney’s fees, and any cost incurred in the recovery of the

Card. Even if your unpaid balance is less than your credit limit, you will have no credit
available during any time that any aspect of your account is in default.
16. Suspension of electronic services and access to share or deposit
accounts. Subject to applicable law, we may suspend some or all electronic services
and access to your checking or other account(s) if you become delinquent on any of
your loan or deposit obligations to us or you cause a loss to us. We shall not be liable to
you in any regard in connection with such suspension of services.
17. Additional Benefits/Card Enhancements. We may, from time to time, offer additional
services to your Account at no additional cost to you. You understand that we are not
obligated to offer such services and may withdraw or change them at any time.
18. Convenience Checks. We may, at our discretion, issue checks to you which may be
used for any purpose other than making a payment for credit to your ac- count. By
signing such check, you authorize us to pay the item for the amount indicated and post
such amount as a cash advance to your account. We do not have to pay any item which
would cause the outstanding balance in your ac- count to exceed your credit limit.
19. Debt Protection. Voluntary Debt Protection coverage or similar products are not
required for any extension of credit under this Agreement. However, if you choose to
purchase this protection from us, the fees will be added to your ac- count balance each
month and will accrue Interest Charges. We will receive a portion of the fees that you
pay as compensation for offering this service to you. If you elect to purchase Debt
Protection, we will provide the required disclosures and program contract separately at
the time of your election.
20. Transaction Slips. Your monthly statement will identify what merchant, electronic
terminal or financial institution at which transactions were made. Sales, cash advance,
credit or other slips cannot be returned with the statement.
21. Credit Information. We may, from time to time, request personal information from you
or obtain credit reports from the credit reporting agencies for the purpose of updating
your credit status. Your failure to provide such information when requested by us may
result in suspension of credit privileges under this Agreement, including your ability to
obtain any future advances by any means. You authorize us to investigate your credit
standing when opening or reviewing your account. You authorize us to disclose
information regarding your account to credit bureau and creditors who inquire about your
credit standing.
22. Foreign Transactions; Currency Conversion. Purchases and cash advances made in
foreign currencies will be billed to you in U.S. dollars. Transactions processed outside of
the United States (which may include internet transactions) will be charged a foreign
transaction fee in an amount to be determined by us, regardless of whether there is a
currency conversion associated with the transaction. The conversion rate in dollars will
be a rate selected by the card company from a range of rates available in wholesale
currency markets for the applicable central processing date, which rate may vary from
the rate the card company itself receives or the government-mandated rate in effect for
the applicable central processing date in each instance.

23. Termination; Change-in-Terms. We may, by written notice, terminate this Agreement
at any time, subject to applicable law. You may terminate this Agreement by written
notice. Termination by either party shall not affect your obligation to repay any payments
made for your account resulting from use of the Card as well as Interest Charges and
fees incurred. We may change the terms of this Agreement, including the method of
calculating the periodic rate, at any time, by written notice, subject to applicable law. To
the extent permitted by applicable law, such rate changes shall apply to your unpaid
balance as well as future advances. Use of the Card constitutes agreement and
acceptance of any change in terms, unless applicable law requires otherwise.
24. Enforcement. We do not lose our rights under this or any related agreement if we delay
enforcing them. We can accept late payments, partial payments or any other payments,
even if marked, “paid in full” without losing any of our rights under this Agreement. If any
provision of this or any related agreement is determined to be unenforceable or invalid,
all other provisions remain in full force and effect.
25. Returns and Adjustments. Merchants and others who honor the Card may give credit
for returns or adjustments, and they will do so by submitting a credit slip which will be
posted to your account. If your credits and payments exceed what you owe us, the
amount will be applied against future purchases and cash advances. If the credit
balance amount is more than $5 but less than $500, and if that credit balance still
remains on your account after 3 billing cycles, we will mail a refund to you at the most
recent address we have on file for you.
26. Refusal to Honor Card. We are not liable for the refusal or inability of merchants,
financial institutions (including us) and others to accept the Card, or electronic terminals
to honor the Card or complete a Card withdrawal, or for their retention of the Card.
27. Plan Merchant Disputes. We are not responsible for the refusal of any plan merchant
or financial institution to honor your Card. Also, we are not responsible for goods or
services that you purchase with the Card unless: (a) your purchase was made in
response to an advertisement we sent or participated in sending you; or (b) your
purchase cost more than $50 and was made from a plan merchant in your state or within
100 miles of your home; and only if you have made a good faith attempt, but have been
unable to obtain satisfaction from the plan merchant. You must resolve all other disputes
directly with the plan merchant. We do not warrant any merchandise or services
purchased by you with the Card.
28. Statements and Notices. Statements and notices will be mailed to you at the most
recent postal address or e-mail address (if you have elected to receive such documents
via electronic means) that you have given us. Statements will be sent each month in
which there is a debit or credit balance or when an Interest Charge is imposed. If you
have elected to receive a statement via e-mail, you will not be sent a paper statement.
We need not send you a statement if we feel your ac- count is uncollectible or if we have
started collection proceedings against your account because you defaulted. Each
statement is deemed to be a correct statement of account unless you establish a billing
error pursuant to the Fair Credit Billing Act. Notice sent to any one of you will be
considered notice to all.

29. Integrated Documents. Any separate document entitled “Truth-in-Lending Statement”
or similar which is delivered with this Agreement or provided at a later time is an
integrated part of this Agreement.
30. Notification of Address Change. You will notify us promptly if you change your
address for any reason. In order to prevent identity theft, your identity may need to be
verified before we act upon the notification.
31. Copy Received. You acknowledge that you have received a copy of this Agreement.
32. Governing Law. This Agreement shall be construed under federal law and state law in
the state in which we are primarily located, and the venue shall be located in the county
and state in which we are primarily located. Operating regulations of Visa or Mastercard,
as applicable, may also apply. This Agreement is the contract that applies to all
transactions even though the sales, cash advance, convenience check, credit or other
slips you sign or receive may contain different terms.
33. NOTICE TO UTAH BORROWERS. This written agreement is a final expression of the
agreement between you and the Credit Union. This written agreement may not be
contradicted by evidence of any oral agreement.
IMPORTANT DISCLOSURES FOR ACTIVE MEMBERS OF THE MILITARY AND THEIR
DEPENDENTS:
The Military Lending Act applies to this credit card account if at the time you establish the
account you are an active member of the military or a dependent (as defined in the Military
Lending Act, 10 U.S.C. 987 and implementing regulations). The following terms and conditions
amend your credit card agreement and apply during any period(s) in which you are active
military or a dependent under those definitions. They do not apply when you are not an active
duty member of the military or a dependent:
1. NOTICE: Federal law provides important protections to members of the Armed Forces
and their dependents relating to extensions of consumer credit. In general, the cost of
consumer credit to a member of the Armed Forces and his or her dependent may not
exceed an annual percentage rate of 36 percent. This rate must include, as applicable to
the credit transaction or account: the costs associated with credit insurance premiums or
debt protection fees; fees for ancillary products sold in connection with the credit
transaction; any application fee or participation fee unless they are bona fide and
reasonable under the MLA. To receive this notice verbally, please call toll-free 1-800593-1000 during our normal business hours.
2. Advances will not be secured by a consensual lien on shares or deposits in any of your
share or deposit accounts unless you specifically agree to establish a secured share or
deposit account in connection with this credit card account (“Secured Account”). Only
funds deposited into the Secured Account after the credit card is established will secure
advances. Any cross-collateralization provision contained in your credit or membership
documents will not apply to the Secured Account or your other share or deposit accounts
for this account.
However, with regard to this credit card account, we still reserve our rights regarding
statutory liens and administrative freeze under federal or state law.
Any contract terms in your credit card, security, or membership agreements that
contradict the above shall be inapplicable.

3. Your credit card account is not subject to mandatory arbitration and therefore any
reference to mandatory arbitration in connection with this credit card account does not
apply.

FI13537 Rev 1-2018 ©2005 Securian Financial Group, Inc. All rights reserved. M-124739
CREDIT BUILDER MASTERCARD AGREEMENT
In this Agreement, “You” and “your” mean any person who accepts this Agreement or uses the
Card. The “Card” means any Credit Builder Mastercard credit card issued to you or those
designated by you under the terms of this Agreement. “We,” “us” or the “Credit Union” means
Diamond Credit Union or its successors. By using your card, you agree to all of the terms and
conditions set forth herein.
SECURITY: (a) In order to receive and maintain your Card, YOU GRANT US A CONSENSUAL
LIEN AND SECURITY INTEREST IN YOUR DESIGNATED SHARE ACCOUNT IN AN
AMOUNT EQUAL TO YOUR CREDIT LIMIT. YOU MAY NOT WITHDRAW ANY AMOUNTS
FROM THE DESIGNATED SHARE ACCOUNT THAT WOULD CAUSE THE ACCOUNT
BALANCE TO FALL BELOW AN AMOUNT EQUAL TO YOUR CREDIT LIMIT, UNLESS WE
AGREE TO RELEASE ALL OR PART OF THE PLEDGED AMOUNT. You may cancel your
Card at any time by paying all amounts owed on your Card. To be certain that your entire
balance and all advances on your Card are paid, any shares pledged may not be available to
you for 30 days after you have cancelled your Card and paid any outstanding balance in full.
(b) Additionally, YOU SPECIFICALLY GRANT US A CONSENSUAL SECURITY INTEREST
IN ALL INDIVIDUAL AND JOINT ACCOUNTS YOU HAVE WITH US NOW AND IN THE
FUTURE TO SECURE REPAYMENT OF CREDIT EXTENDED UNDER THIS AGREEMENT.
YOU ALSO AGREE THAT WE HAVE SIMILAR STATUTORY LIEN RIGHTS UNDER STATE
AND/OR FEDERAL LAW. THE GRANTING OF THIS SECURITY INTEREST IS A
CONDITION FOR THE ISSUANCE OF CREDIT UNDER THIS AGREEMENT. IF YOU ARE IN
DEFAULT, WE CAN APPLY YOUR SHARES TO THE AMOUNT YOU OWE. Shares and
deposits in an Individual Retirement Account or any other account that would lose special tax
treatment under state or federal law if given are not subject to this security interest.
(c) If you have other loans with us, collateral securing such loans may also secure your
obligations under this Agreement.
(d) Military Lending Act. Notwithstanding any provision above, at any time(s) during which the
Military Lending Act applies to this account: (a) only shares deposited into the Secured Deposit
Account after the card is established will secure this Card, and no other accounts will secure
this Card; (b) the “Cross-Collateralization; Additional Security” provision does not apply; and (c)
any provision in any agreement or other document provided in connection with your Card that
contradicts the Military Lending Act shall have no force or effect.

1. Using Your Card. Using your Card constitutes your acceptance of the terms and
conditions of this Agreement, as may be amended from time to time. You can purchase
or lease goods and services (“Purchases”) from any merchant who honors your Card up
to your maximum credit limit for your Card. You may also use the Card to obtain cash
advances up to your maximum credit limit from financial institutions and ATMs that
accept the Card. You may also access your account by telephone or access checks (if
provided to you). Certain purchases and cash advances require authorization prior to
completion of the transaction. In some cases, you may be asked to provide identification.
If our system is not working, we may not be able to authorize a transaction, even though
you have sufficient credit available. Also, for security reasons, we may block the use of
your Card in certain countries or geographic areas. We will have no liability to you or
others if any of these events occur.
2. Credit Limits. We will notify you of your credit limit. You agree to keep your unpaid
balance within your credit limit; however, if you do exceed your credit limit, you agree to
immediately pay any amount over the credit limit upon our demand, regardless of
whether we authorized the advance(s) which caused you to exceed your credit limit.
3. Personal Identification Number (PIN). We will issue a Personal Identification Number
(PIN) for use with your Card. This PIN is confidential and should not be disclosed to
anyone. You may use your PIN and your Card to access your account, and all sums
advanced will be added to your account balance. In the event a use of your PIN
constitutes an Electronic Funds Transfer, the terms and conditions of your Electronic
Funds Transfer Agreement may affect your rights.
4. Promise To Pay. Regardless of the means used to access your account, you promise to
pay us in U.S. dollars for (a) all purchases, cash advances, and balance transfers made
by you or anyone whom you authorize to use the Card; (b) all Interest Charges and other
charges or fees; (c) collection costs and attorney’s fees as permitted by applicable law,
and any costs incurred in the recovery of the Card; and (d) credit in excess of your credit
limit that we may extend to you.
5. Illegal Use and Internet Gambling. You agree that all transactions that you initiate by
use of your Card are legal in the jurisdiction where you live and/or where the transaction
occurred. Internet gambling may be illegal in the jurisdiction in which you are located,
including the United States. Your Card may only be used for legal transactions. Display
of a payment card logo by an online merchant does not mean that internet gambling
transactions are lawful in all jurisdictions in which you may be located. You agree to
repay according to the terms of this Agreement all transactions you initiate by use of
your Credit Card, whether deemed legal or illegal.
6. Joint Accounts. Each of you will be responsible, jointly and severally, for the repayment
of amounts owed, regardless of who initiated any transaction under the account.
7. Ownership of Card. Your Card remains our property and may be cancelled by us at any
time without notice. You agree to surrender your Card and to discontinue use of the
account immediately upon our request.
8. Others Using Your Account. If you allow anyone else to use your account, you will be
liable for all credit extended to such persons. You promise to pay for all purchases and
advances made by anyone you authorize to use your account, whether or not you notify

us that he or she will be using it. If someone else is authorized to use your account and
you want to end that person’s privilege, you must notify us in writing, and if he or she has
a Card, you must return that Card with your written notice for it to be effective.
9. Interest Charges. You agree to pay interest at the rate(s) disclosed to you at the time
you open your account and as may be charged from time to time in accordance with
applicable law. Interest Charges will accrue on your average daily balance outstanding
during the month (new and previous). To get the average daily balance, we take the
beginning balance each day, add any new purchases, cash advances, insurance
premiums or debt protection fees or similar fees, and debit adjustments and subtract any
unpaid late charges. This gives us the daily balance. Then, we add up all the daily
balances for the billing cycle and divide that by the number of days in the billing cycle.
We then multiply that by the monthly periodic rate corresponding to the Annual
Percentage Rate that was previously disclosed to you. You can avoid Interest Charges
on purchases by paying the full amount of the entire balance for purchases each month
by the date on which the payment is due. Otherwise, the new balance for purchases,
and subsequent advances from the date they are posted to the account, will be subject
to an Interest Charge. You cannot avoid Interest Charges on cash advances and
balance transfers; even if you pay the entire cash advance balance or balance transfer
balance by the payment due date, you will incur the Interest Charges accrued from the
transaction date of the cash advance or balance transfer.
10. Fees. You agree to pay any and all fees that you incur in connection with your Card, in
accordance with applicable law, in the amounts set forth on your Truth-in-Lending
Statement, which fees and/or amounts may be amended from time to time.
11. Minimum Monthly Payments. Your minimum monthly payment will be 1.5% of your
total New Balance shown on your billing statement at the end of each billing cycle, plus
the amount of any prior payments due that remain unpaid, subject to the lesser of $20 or
your account balance. In addition, any time that your total New Balance exceeds your
credit limit, you must immediately pay the excess upon our demand. You have the right
to pay your account in full at any time without penalty. Partial payments or prepayments
will not delay your next scheduled payment – you will still need to make the minimum
scheduled payment by the next scheduled due date to keep your account current.
Payments will be applied in any order we determine, subject to applicable law. You
understand that any payment that delays the repayment of your unpaid balance will
increase your Interest Charge and any payment that accelerates the reduction of your
unpaid balance will decrease your Interest Charges.
12. If Your Card is Lost or Stolen or if an Unauthorized Use Occurs. You agree to notify
us immediately if your Card is ever lost or stolen or if an unauthorized use may have
occurred. “Unauthorized use” means the use of the Card by someone other than you
who does not have actual, implied or apparent authority for such use, and from which
you receive no benefit. Call or write to us at (800) 593-1000 or (610) 326-5490 or
Diamond Credit Union, 1600 Medical Drive, Pottstown, PA 19464. You also agree to
assist us in determining the facts, circumstances and other pertinent information relating
to any loss, theft or possible unauthorized use of your Card and comply with such
procedures as we may require in connection with our investigation. You will have no
liability for Mastercard transactions not authorized by you, provided that you have
exercised reasonable care in safeguarding the Card from risk of loss or theft, and upon
becoming aware of such loss or theft, you promptly report the loss or theft to us.

13. Crediting Of Payments. Payments are due on the date disclosed on your monthly
statement. If your payment is received by us either by mail, electronically, or in-person at
a branch during regular business hours on a business day, it will be credited to your
account as of that date. Payments placed in our lockbox between 6 a.m. and 5 p.m. EST
will be credited to your account as of the date placed in the lockbox. If payment is made
by any other means or at any other times, credit for such payment may be delayed up to
five (5) days. Payments will be applied in any order we determine, subject to applicable
law.
14. Default; Acceleration; Credit Suspension; Collection Costs. You will be in default if:
(a) you fail to make any payment on time; (b) if you fail to keep any promises you have
made under this Agreement or under other Agreements you have with us; (c) if you die;
(d) if you file a petition in bankruptcy or have a bankruptcy petition filed against you, or if
you become involved in any insolvency, receivership or custodial proceeding; (e) if
anyone attempts to take any of your funds held by us via legal process or if you have a
judgment or tax lien filed against you; (f) if you make any false, inaccurate, or misleading
statements in any credit application or credit update; or (g) if we, in good faith, believe
that your ability to repay what you owe is or soon will be impaired, or that you are
unwilling to make your payments. If you are in default, we have the right to demand
immediate payment of your full account balance without giving you notice. If immediate
payment is demanded, you agree to continue paying Interest Charges until what you
owe has been paid, and any shares that were given as security for your account may be
applied toward what you owe. You agree to pay all reasonable costs of collection,
including court costs and attorney’s fees, and any cost incurred in the recovery of the
Card. Even if your unpaid balance is less than your credit limit, you will have no credit
available during any time that any aspect of your account is in default.
15. Suspension of electronic services and access to share or deposit
accounts. Subject to applicable law, we may suspend some or all electronic services
and access to your checking or other account(s) if you become delinquent on any of
your loan or deposit obligations to us or you cause a loss to us. We shall not be liable to
you in any regard in connection with such suspension of services.
16. Additional benefits/Card Enhancements. We may, from time to time, offer additional
services to your Account at no additional cost to you. You understand that we are not
obligated to offer such services and may withdraw or change them at any time.
17. Convenience Checks. We may, at our discretion, issue checks to you which may be
used for any purpose other than making a payment for credit to your account. By signing
such check, you authorize us to pay the item for the amount indicated and post such
amount as a cash advance to your account. We do not have to pay any item which
would cause the outstanding balance in your account to exceed your credit limit.
18. Debt Protection. Voluntary Debt Protection coverage or similar products are not
required for any extension of credit under this Agreement. However, if you choose to
purchase this protection from us, the fees will be added to your account balance each
month and will accrue Interest Charges. We will receive a portion of the fees that you
pay as compensation for offering this service to you. If you elect to purchase Debt
Protection, we will provide the required disclosures and program contract separately at
the time of your election.

19. Transaction Slips. Your monthly statement will identify what merchant, electronic
terminal or financial institution at which transactions were made. Sales, cash advance,
credit or other slips cannot be returned with the statement.
20. Credit Information. We may, from time to time, request personal information from you
or obtain credit reports from the credit reporting agencies for the purpose of updating
your credit status. Your failure to provide such information when requested by us may
result in suspension of credit privileges under this Agreement, including your ability to
obtain any future advances by any means. You authorize us to investigate your credit
standing when opening or reviewing your account. You authorize us to disclose
information regarding your account to credit bureau and creditors who inquire about your
credit standing.
21. Foreign Transactions; Currency Conversion. Purchases and cash advances made in
foreign currencies will be billed to you in U.S. dollars. Transactions processed outside of
the United States (which may include internet transactions) will be charged a foreign
transaction fee in an amount to be determined by us, regardless of whether there is a
currency conversion associated with the transaction. The conversion rate in dollars will
be a rate selected by the card company from a range of rates available in wholesale
currency markets for the applicable central processing date, which rate may vary from
the rate the card company itself receives or the government- mandated rate in effect for
the applicable central processing date in each instance.
22. Termination; Change-in-Terms. We may, by written notice, terminate this Agreement
at any time, subject to applicable law. You may terminate this Agreement by written
notice. Termination by either party shall not affect your obligation to repay any payments
made for your account resulting from use of the Card as well as Interest Charges and
fees incurred. We may change the terms of this Agreement, including the method of
calculating the periodic rate, at any time, by written notice, subject to applicable law. To
the extent permitted by applicable law, such rate changes shall apply to your unpaid
balance as well as future advances. Use of the Card constitutes agreement and
acceptance of any change in terms, unless applicable law requires otherwise.
23. Enforcement. We do not lose our rights under this or any related agreement if we delay
enforcing them. We can accept late payments, partial payments or any other payments,
even if marked, “paid in full” without losing any of our rights under this Agreement. If any
provision of this or any related agreement is determined to be unenforceable or invalid,
all other provisions remain in full force and effect.
24. Returns and Adjustments. Merchants and others who honor the Card may give credit
for returns or adjustments, and they will do so by submitting a credit slip which will be
posted to your account. If your credits and payments exceed what you owe us, the
amount will be applied against future purchases and cash advances. If the credit
balance amount is more than $5 but less than $500, and if that credit balance still
remains on your account after 3 billing cycles, we will mail a refund to you at the most
recent address we have on file for you.
25. Refusal to Honor Card. We are not liable for the refusal or inability of merchants,
financial institutions (including us) and others to accept the Card, or electronic terminals
to honor the Card or complete a Card withdrawal, or for their retention of the Card.

26. Plan Merchant Disputes. We are not responsible for the refusal of any plan merchant
or financial institution to honor your Card. Also, we are not responsible for goods or
services that you purchase with the Card unless: (a) your purchase was made in
response to an advertisement we sent or participated in sending you; or (b) your
purchase cost more than $50 and was made from a plan merchant in your state or within
100 miles of your home; and only if you have made a good faith attempt, but have been
unable to obtain satisfaction from the plan merchant. You must resolve all other disputes
directly with the plan merchant. We do not warrant any merchandise or services
purchased by you with the Card.
27. Statements and Notices. Statements and notices will be mailed to you at the most
recent postal address or e-mail address (if you have elected to receive such documents
via electronic means) that you have given us. Statements will be sent each month in
which there is a debit or credit balance or when an Interest Charge is imposed. If you
have elected to receive a statement via e-mail, you will not be sent a paper statement.
We need not send you a statement if we feel your account is uncollectible or if we have
started collection proceedings against your account because you defaulted. Each
statement is deemed to be a correct statement of account unless you establish a billing
error pursuant to the Fair Credit Billing Act. Notice sent to any one of you will be
considered notice to all.
28. Integrated Documents. Any separate document entitled ‘Truth-in-lending Statement’ or
similar which is delivered with this Agreement or provided at a later time is an integrated
part of this Agreement.
29. Notification of Address Change. You will notify us promptly if you change your
address for any reason. In order to prevent identity theft, your identity may need to be
verified before we act upon the notification.
30. Copy Received. You acknowledge that you have received a copy of this Agreement.
31. Governing Law. This Agreement shall be construed under federal law and state law in
the state in which we are primarily located, and the venue shall be located in the county
and state in which we are primarily located. Operating regulations of Visa or Mastercard,
as applicable, may also apply. This Agreement is the contract that applies to all
transactions even though the sales, cash advance, convenience check, credit or other
slips you sign or receive may contain different terms.
32. NOTICE TO UTAH BORROWERS. This written agreement is a final expression of the
agreement between you and the Credit Union. This written agreement may not be
contradicted by evidence of any oral agreement.
IMPORTANT DISCLOSURES FOR ACTIVE MEMBERS OF THE MILITARY AND THEIR
DEPENDENTS:
The Military Lending Act applies to this credit card account if at the time you establish the
account you are an active member of the military or a dependent(as defined in the Military
Lending Act, 10 U.S.C. 987 and implementing regulations). The following terms and conditions
amend your credit card agreement and apply during any period(s) in which you are active
military or a dependent under those definitions. They do not apply when you are not an active
duty member of the military or a dependent:

1. NOTICE: Federal law provides important protections to members of the Armed Forces
and their dependents relating to extensions of consumer credit. In general, the cost of
consumer credit to a member of the Armed Forces and his or her dependent may not
exceed an annual percentage rate of 36 percent. This rate must include, as applicable to
the credit transaction or account: the costs associated with credit insurance premiums or
debt protection fees; fees for ancillary products sold in connection with the credit
transaction; any application fee or participation fee unless they are bona fide and
reasonable under the MLA. To receive this notice verbally, please call toll-free 1-800593-1000 during our normal business hours.
2. Advances will not be secured by a consensual lien on shares or deposits in any of your
share or deposit accounts unless you specifically agree to establish a secured share or
deposit account in connection with this credit card account (“Secured Account”). Only
funds deposited into the Secured Account after the credit card is established will secure
advances. Any cross-collateralization provision contained in your credit or membership
documents will not apply to the Secured Account or your other share or deposit accounts
for this account. However, with regard to this credit card account, we still reserve our
rights regarding statutory liens and administrative freeze under federal or state law. Any
contract terms in your credit card, security, or membership agreements that contradict
the above shall be inapplicable.
3. Your credit card account is not subject to mandatory arbitration and therefore any
reference to mandatory arbitration in connection with this credit card account does not
apply.

YOUR BILLING RIGHTS: KEEP THIS DOCUMENT FOR FUTURE USE:
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the address(es) listed on your
statement.
In your letter, give us the following information:
1. Your name and account number.
2. The dollar amount of the suspected error.
3. If you think there is an error on your bill, describe what you believe is wrong and why you
believe it is a mistake.
You must contact us:
•

Within 60 days after the error appeared on your statement.

•

At least 3 business days before an automated payment is scheduled, if you want to stop
payment on the amount you think is wrong.

You must notify us of any potential errors in writing. You may call us, but if you do, we are not
required to investigate any potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We
will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you
why we believe the bill is correct.
While we investigate whether or not there has been an error:
•

We cannot try to collect the amount in question, or report you as delinquent on that
amount.

•

The charge in question may remain on your statement, and we may continue to charge
you interest on that amount.

•

While you do not have to pay the amount in question, you are responsible for the
remainder of your balance.

•

We can apply any unpaid amount against your credit limit.

After we finish our investigation, one of two things will happen:
•

If we made a mistake: You will not have to pay the amount in question or any interest or
other fees related to that amount.

•

If we do not believe there was a mistake: You will have to pay the amount in question,
along with applicable interest and fees. We will send you a statement of the amount you
owe and the date payment is due. We may then report you as delinquent if you do not
pay the amount we think you owe.

If you receive our explanation but still believe your bill is wrong, you must write to us within 10
days telling us that you still refuse to pay. If you do so, we cannot report you as delinquent
without also reporting that you are questioning your bill. We must tell you the name of anyone to
whom we reported you as delinquent, and we must let those organizations know when the
matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you
question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card,
and you have tried in good faith to correct the problem with the merchant, you may have the
right not to pay the remaining amount due on the purchase. To use this right, all of the following
must be true:
1. The purchase must have been made in your home state or within 100 miles of your
current mailing address, and the purchase price must have been more than $50. (Note:

Neither of these are necessary if your purchase was based on an advertisement we
mailed to you, or if we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash
advances from an ATM or with a check that accesses your credit card account do not
qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in
writing at the address(es) listed on your statement. While we investigate, the same rules apply
to the disputed amount as discussed above. After we finish our investigation, we will tell you our
decision. At that point, if we think you owe an amount and you do not pay, we may report you as
delinquent.
LASER PDF FI13614 Rev 1-2018
COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

